               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




             Consigned Vehicle Parts

                       Audit Report




                                              March 18, 2013

Report Number FT-AR-13-010
                                                                      March 18, 2013

                                                           Consigned Vehicle Parts

                                                       Report Number FT-AR-13-010




BACKGROUND:
The U.S. Postal Service mandated            and personnel did not always
consignment of vehicle repair parts         adequately determine whether Postal
beginning in January 2002 to reduce its     Service-owned parts were available. As
capital investment in vehicle parts         a result, management could not ensure
inventory. Its national ordering            accurate parts issuance, and expensing
agreements define consignment as            and suppliers could inappropriately
parts owned by suppliers and stored at      charge the Postal Service for parts.
vehicle maintenance facilities.
Accordingly, suppliers own the parts        Also, vehicle maintenance facility
until they are installed. Wheeler           personnel did not consistently determine
Brothers, Inc. is the main supplier of      whether warranties were available or
vehicle parts at 274 of 308 vehicle         adequately validate parts credits. We
maintenance facilities. It provides         estimated that vehicle maintenance
warranty reimbursements and credits for     facilities could have obtained an
certain parts. Vehicle maintenance          additional $750,000 in annual warranty
facility personnel used Wheeler             reimbursements and about $345,000 in
Brothers, Inc.’s system to identify and     annual parts credits. We also noted
issue parts for vehicle repair. However,    accounting adjustments were nominal
effective February 2012, the Postal         and the Postal Service had procedures
Service began implementing the              in place to address them.
Solution for Enterprise Asset
Management - Vehicle Maintenance to         WHAT THE OIG RECOMMENDED:
track and monitor consigned parts.          We recommended the Postal Service
                                            implement procedures for supplier
The objectives of our audit were to         consigned parts inventories, warranty
determine whether opportunities exist to    reimbursements, and returning certain
reduce program costs and the level of       parts and verifying credits. Additionally,
accounting adjustments for consigned        management should enhance Solution
vehicle parts. Payments for vehicle parts   for Enterprise Asset Management -
and supplies totaled about $270 million     Vehicle Maintenance reporting
annually in fiscal years 2011 and 2012.     capabilities for warranties. Subsequent
                                            to management's comments we
WHAT THE OIG FOUND:                         identified errors in our use of supplier's
We identified opportunities to reduce       data that impacted the calculations of
costs for consigned vehicle parts.          monetary and other impacts. This report
Specifically, supervisors did not           reflects these changes.
consistently monitor physical inventories   Link to review the entire report
March 18, 2013


MEMORANDUM FOR:            EDWARD F. PHELAN JR.
                           VICE PRESIDENT, DELIVERY & POST OFFICE
                            OPERATIONS

                                  E-Signed by John Cihota
                            ERIFY authenticity with eSign Deskto




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Consigned Vehicle Parts
                           (Report Number FT-AR-13-010)

This report presents the results of our audit of the U.S. Postal Service’s Consigned
Vehicle Parts (Project Number 12BG015FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Finance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Timothy F. O’Reilly
    Elizabeth A. Schaefer
    J. Otis Smith
    Corporate Audit and Response Management
Consigned Vehicle Parts                                                                                            FT-AR-13-010



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Consignment Supplier Physical Inventories Monitoring................................................... 2

Postal-Owned Vehicle Parts in Inventory ........................................................................ 3

Warranty Reimbursements.............................................................................................. 4

Core Returns ................................................................................................................... 5

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objectives, Scope, and Methodology ........................................................................ 10

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Monetary and Other Impacts..................................................................... 13

Appendix C: Management’s Comments ........................................................................ 14
Consigned Vehicle Parts                                                      FT-AR-13-010



Introduction

This report presents the results of our audit of the U.S. Postal Service’s Consigned
Vehicle Parts (Project Number 12BG015FT000). Our objectives were to determine
whether opportunities exist to reduce costs and the level of accounting adjustments for
consigned vehicle parts. This self-initiated audit addresses operational and financial
risk. See Appendix A for additional information about this audit.

The Postal Service mandated consignment of vehicle repair parts inventories beginning
in January 2002 to reduce its capital investment in vehicle parts inventory. The Postal
Service’s national ordering agreements define consignment as parts owned by suppliers
and stored at vehicle maintenance facilities (VMFs). Authorized consignment suppliers
have created integrated Postal Service-supplier information networks and are,
therefore, able to maintain detailed spare parts usage records, and automatically
replenish VMF inventories to maintain appropriate supply levels. Tracking systems and
associated hardware and telephone lines are provided and maintained at the supplier's
expense. Currently, these five suppliers provide consigned parts to the Postal Service:

      Wheeler Brothers, Inc.
      Jasper Innovative Solutions (formerly Mac Motors Inc.)
      Jasper Engines & Transmissions.
      Axiom Automotive Technologies, Inc.
      Grooms Engines.

The suppliers maintain ownership of the consigned repair parts until they are installed
on a vehicle. To maintain appropriate supply levels, the suppliers automatically
replenish their consigned inventories. Suppliers are authorized to conduct counts of
their consigned inventory at the VMFs at least once per year. Wheeler Brothers, Inc. is
the main supplier of vehicle parts at 274 of 308 VMFs. Wheeler Brothers, Inc. created a
web-based inventory system to issue, expense, replenish, and maintain detailed spare
parts usage records. Because the Vehicle Management Accounting System (VMAS)1
did not include consigned parts, VMF personnel used Wheeler Brothers, Inc.’s inventory
system to identify and issue parts for vehicle repair. The Postal Service required
Wheeler Brothers, Inc. to maintain the system and to provide training to VMF personnel.

On February 1, 2012, Supply Management started a phased-in implementation of the
Solution for Enterprise Asset Management (SEAM) – Vehicle Maintenance for VMFs.
SEAM - Vehicle Maintenance replaces the VMAS for reporting on inventory, assets, and
work order transactions; as well as tracking and monitoring consigned parts. This
system will replace reliance on consignment suppliers’ inventory programs. As of
October 1, 2012, management deployed SEAM - Vehicle Maintenance at six pilot sites
and all VMFs in the Western, Pacific, Northeast, Southern, and Eastern areas.

1
    The Postal Service’s vehicle monitoring and tracking system.
                                                            1
Consigned Vehicle Parts                                                                                 FT-AR-13-010



Management targets full implementation of SEAM during fiscal year (FY) 2013.
Payments for vehicle parts and supplies totaled about $270 million annually in FYs 2011
and 2012.

Conclusion

We identified opportunities to reduce costs for consigned vehicle parts, specifically:

   Supervisors did not consistently monitor Wheeler Brothers, Inc.’s physical
    inventories, so the supplier could inappropriately charge the Postal Service for parts
    not found. We did not find any specific instances of inappropriate charges during our
    audit.

   When identifying parts for maintenance or repair of vehicles, VMF personnel did not
    always adequately determine whether Postal Service-owned parts were available,
    so the Postal Service may have purchased and issued consigned parts when
    Postal Service-owned parts were available.

   When issuing vehicle parts, VMF personnel did not consistently determine whether
    warranties were available to obtain reimbursements for defective parts. We
    estimated that VMFs could have obtained an additional $750,000 in annual warranty
    reimbursements in calendar years (CY) 2010 and 2011. Although implementation of
    SEAM - Vehicle Maintenance will resolve this issue, it does not maintain history for
    parts used before its implementation, so there is a risk the Postal Service might not
    take advantage of warranties during the transition period. Based on historical data
    and projections, we estimated warranty reimbursements of about $2.1 million will be
    available during the implementation phase.

   VMF personnel did not adequately validate core credits 2 from the supplier, so VMF
    personnel could not ensure they obtained reimbursement for all deposits on core
    parts. We identified about $345,000 in annual core credits the Postal Service did not
    obtain.

We also noted accounting adjustments were nominal and the Postal Service had
procedures in place to address them. We will continue to monitor these adjustments in
future financial statement audits.

Consignment Supplier Physical Inventories Monitoring

Supervisors did not consistently monitor Wheeler Brothers, Inc.’s physical inventories.
We visited four VMFs 3 and found:


2
  Certain automobile parts have a core price that is used as a form of deposit on the portion of the part that can be
remanufactured and is designed to encourage return of the old part. Parts that may have a core price include brake
shoes, brake master cylinders, water pumps, starters, alternators, and air conditioning compressors.
3
  San Jose, CA; Sacramento, CA; San Francisco, CA; and Oakland, CA.

                                                           2
Consigned Vehicle Parts                                                                                   FT-AR-13-010



   Supervisors at two VMFs assigned personnel to accompany Wheeler Brothers, Inc.'s
    representatives, observe, and answer questions.

   Supervisors at two VMFs made personnel available to answer questions as Wheeler
    Brothers, Inc.'s representatives conducted the inventory counts. These personnel
    continued to perform their assigned duties in the stockroom.

Under the National Ordering Agreement, 4 the consignment supplier is authorized to
inventory its own stock at the VMFs at least once per year, or more frequently if
circumstances require. These inventory counts identify differences between the
consignment supplier’s inventory records and the physical parts on hand. After
completing the counts, the consignment supplier provides management with an
inventory count summary, and charges the Postal Service for parts not found. They also
adjust their inventory records to reflect Postal Service-owned parts on-hand to ensure
these parts are issued before consigned parts.

Procedures exist regarding monthly (interim) physical inventories performed by VMF
personnel that require inventories to be performed, at a minimum, by a two-person
team, consisting of a counter and a recorder. 5 However, the Postal Service does not
have nationwide instructions or guidance concerning the responsibilities of Postal
Service employees during physical inventory counts conducted by consignment
suppliers. Without consistent oversight during the consignment suppliers’ physical
inventory, Postal Service personnel may not identify errors or differences included in the
supplier’s inventory count. Accordingly, the Postal Service might pay for parts that are in
the consigned inventory. We did not identify any instances during our audit where the
Postal Service paid for parts that were in the consigned inventory.

Postal-Owned Vehicle Parts in Inventory

When identifying parts for maintenance or repair of vehicles, VMF personnel at the four
sites visited did not use VMAS to determine whether Postal Service-owned parts were
available. This occurred because VMAS did not include consigned parts, so personnel
relied on Wheeler Brothers Inc.'s inventory system to ensure they queried for both
Postal Service-owned and consigned parts. However, because Wheeler Brothers, Inc.’s
inventory system did not always include all Postal Service-owned vehicle parts, the
Postal Service may have purchased and issued consigned parts when Postal Service-
owned parts were available. During CYs 2010 and 2011, Wheeler Brothers, Inc.’s
physical inventory counts found $634,000 6 in Postal Service-owned vehicle parts that
were not included in its inventory system. Also, during CY 2012, at one VMF with the



4
  An ordering agreement is not itself a contract. It is a written agreement that contains terms and conditions applying
to future contracts between the parties. The contracts are established when orders are issued and accepted by the
parties. Although there may be a price ceiling for individual orders, there is no limit on the aggregate value of orders
and no commitment to purchase.
5
  Vehicle Maintenance Bulletin, VMB-02-11, dated April 15, 2011.
6
  Wheeler Brothers, Inc. provided this information. We did not validate the value of the parts.

                                                            3
Consigned Vehicle Parts                                                                                 FT-AR-13-010



same situation, Wheeler Brothers, Inc. found about $54,000 of Postal Service-owned
vehicle parts that were not included in its system. 7

Technicians initiate vehicle maintenance work orders that include parts for scheduled
maintenance or repairs. On occasion, VMF personnel purchase parts that are not
needed and the parts become Postal Service-owned. In these instances, procedures8
require VMF personnel to return the parts to inventory as Postal Service-owned. When
they physically return the parts to inventory, VMF personnel must record them in VMAS
to adjust inventory balances in the system but are not required to record them in
Wheeler Brothers, Inc.’s inventory system. When there is a new request to issue the
same part, VMF personnel at the four sites visited use Wheeler Brothers, Inc.’s
inventory system to check for a Postal Service-owned part. If one is not available,
Wheeler Brothers, Inc.’s inventory system will issue a consigned part. As a result,
available Postal Service-owned parts remained undetected in physical inventory and
parts may have been purchased unnecessarily.

The new SEAM - Vehicle Maintenance system includes both Postal Service-owned and
consigned parts. Therefore, upon implementation, personnel will no longer use Wheeler
Brothers, Inc.’s inventory system for identifying parts. Accordingly, we are not making a
recommendation at this time. However, we will continue to monitor this area to ensure
VMF personnel adjust inventory balances upon return of parts to SEAM - Vehicle
Maintenance as Postal Service-owned.

Warranty Reimbursements

When issuing parts, VMF personnel did not consistently determine whether warranties
were available to obtain reimbursements for defective parts. Specifically, of the
four VMFs visited, we found:

   Personnel at two VMFs used Wheeler Brothers, Inc.’s inventory system to determine
    whether warranties were available before issuing the parts.

   Personnel at two VMFs did not use Wheeler Brothers, Inc.’s inventory system but
    instead relied on technicians to review the vehicle jacket 9 to determine whether
    warranties were available.

Warranties for vehicle parts that are defective or fail are usually available within the first
12 months of use. 10 Wheeler Brothers, Inc.’s inventory system has a feature that allows


7
  We did not conduct any inventory counts during our audit so were unable to identify additional Postal
Service-owned vehicle parts not included in Wheeler Brothers, Inc.’s inventory system.
8
  Handbook PO-701, Fleet Management, Section 452.51, Recording Returned Items to Stock, dated March 1991.
SEAM VMF Student Training Manual, Chapter 3, Return Material to a VMF Work Order, Copyright 2011, also
requires personnel to enter returned parts into the inventory system. However, we did not test parts returns at any
sites that transitioned to SEAM - Vehicle Maintenance.
9
  Vehicle jackets are maintained for each Postal Service-owned or maintained vehicle. The vehicle jacket must
contain all documents relating to the repair and maintenance of the vehicles. Vehicle jackets will be phased out with
implementation of SEAM - Vehicle Maintenance.

                                                          4
Consigned Vehicle Parts                                                                                FT-AR-13-010



VMF personnel to view the vehicle parts history as part of the process of issuing parts.
Another way to obtain the vehicle parts history is to review the vehicle jacket contents.
Unlike using Wheeler Brothers, Inc.’s inventory system, this method is not efficient
because it is a manual process and requires the technician to review all work orders
related to that part.

Once a part is identified, VMF personnel follow supplier’s procedures to obtain
reimbursement. Specifically, VMF personnel return the authorized part to the
consignment supplier on the supplier's Return Material Authorization form. After the
supplier validates that the part is defective, the supplier issues a warranty credit.

Postal Service policy states that VMFs are responsible for maintaining aggressive
warranty recovery programs. 11 However, the Postal Service does not have written
procedures for identifying and obtaining reimbursements for parts under warranty. As a
result, VMF personnel may not have obtained warranty reimbursements for all eligible
defective and failed vehicle parts. Our analysis of Wheeler Brothers, Inc.'s sales for
each VMF compared to the percentage of warranties received showed that VMFs could
have obtained an additional $665,000 in warranty reimbursements in CY 2010 and
$837,000 in CY 2011. See Appendix B for monetary impact.

SEAM - Vehicle Maintenance will automatically identify all parts under warranty.
Therefore, upon implementation, personnel will no longer need to identify parts under
warranty. However, SEAM - Vehicle Maintenance does not produce exception reports to
identify parts that are returned as defective but are not included on the Return Material
Authorization form. Therefore, management may still not always obtain all warranty
reimbursements. Also, SEAM - Vehicle Maintenance does not include vehicle histories
for parts used before implementation of the system and, thus, will not identify warranties
for those parts. Based on historical data and projections, we estimate warranty
reimbursements of $2.1 million will be available during the implementation phase. See
Appendix B for other impact.

Core Returns

VMF personnel did not adequately validate core credits from the supplier. Certain
automobile parts can be remanufactured for future sales. These parts have a core price
that is used as a form of deposit on the portion of the part that can be remanufactured
and is designed to encourage return of the old part. Parts that may have a core price
include brake shoes, brake master cylinders, water pumps, starters, alternators, and air
conditioning compressors. The supplier charges for the cores and provides credits when
the cores are returned. Returning cores saves money on replacement parts. At all four
VMFs we visited, personnel returned cores for credit. However, they did not consistently
document core returns or verify the core credits received. Specifically:


10
    Consigned suppliers warrant engines and transmission for 36 months. Additionally, some turn signal lights have
lifetime warranties.
11
    Handbook PO-701, Chapter 6, Section 611, dated March 1991.

                                                          5
Consigned Vehicle Parts                                                                             FT-AR-13-010



    At one VMF, personnel used the supplier’s standard core return form that included a
     reference number. Personnel then verified the core credit invoice information
     provided by the supplier to the core return forms they prepared to ensure they
     received credit of all cores they returned.

    At two VMFs, personnel were not aware the supplier had a core return form.
     Personnel at one of these VMFs used a spreadsheet to verify core credit invoice
     information provided by the supplier to their records to ensure credit for cores they
     returned. At the other VMF, personnel did not record the cores they returned and
     were unable to verify core credit information provided by the supplier.

    At one VMF, personnel used the supplier’s standard core return form but did not
     verify information provided by the supplier to their records.

This occurred because the Postal Service did not have procedures for all VMFs
regarding returning and verifying core credits. Internal controls should be in place to
ensure effective and efficient operations, 12 including obtaining reimbursements and
credits when available. During CY 2010, total core charges were $2.37 million and core
credits were $2.02 million. During CY 2011, total core charges were $3.13 million, and
core credits were $2.79 million. Accordingly, the Postal Service did not obtain
reimbursement for core credits of about $345,000 annually. See Appendix B for
monetary impact.

SEAM - Vehicle Maintenance enhances the core credit documentation and verification
process. Personnel create core return forms in SEAM - Vehicle Maintenance that are
summarized in a Warranty and Core Claims Report. Personnel can use that report to
validate core credits received. However, there are no instructions regarding review of
the report to ensure all credits are received.

Recommendations

We recommend the vice president, Delivery and Post Office Operations:

1. Develop and implement nationwide policies and procedures for vehicle maintenance
   facility personnel to follow during consignment suppliers’ consigned parts
   inventories.

2. Develop and implement nationwide procedures for identifying, returning, and
   obtaining reimbursements for parts under warranty.

3. Enhance Solution for Enterprise Asset Management (SEAM) - Vehicle Maintenance
   reporting capabilities to include exception reports listing vehicle parts identified in
   SEAM - Vehicle Maintenance as being under warranty but are not listed on a Return
   Material Authorization Form.

12
  Standards for Internal Control in the Federal Government issued by the U.S. Government Accountability Office
(GAO) (GAO/AIMD-00-21.3.1, dated November 1999).

                                                        6
Consigned Vehicle Parts                                                           FT-AR-13-010




4. Develop and implement nationwide procedures to capture all warranties during the
   Solution for Enterprise Asset Management - Vehicle Maintenance implementation
   phase.

5. Develop and implement nationwide procedures for returning cores and verifying core
   credits.

Management’s Comments

Management agreed, in part, with recommendations 2, 3, and 5; however, management
disagreed with recommendations 1 and 4. In addition, management stated they found
significant flaws in the analysis of the information supplied by the consignment suppliers
that the U.S. Postal Service Office of Inspector General (OIG) prepared. They noted
that the data provided and the identified costs associated with part purchases and
warranty returns were not accurately associated to VMFs. In particular, while no outliers
were identified for warranty reimbursement percentages, over 30 facilities were
eliminated in calculating the monetary impact. Further, nine of the facilities eliminated in
the calculation showed a warranty reimbursement amount greater than the total parts
purchased, indicating a flaw in the analysis. The defective data was verified by the
consignment supplier who provided the original information to the audit team.
Additionally, the monetary value for core credits did not appear to take into
consideration loss reimbursements due to damaged cores.

Management disagreed with recommendation 1. They stated that consignment
suppliers are authorized to schedule and perform an inventory count for their parts for
each VMF on an annual basis. They stated the audit failed to fully describe the process
for making inventory corrections resulting from the inventory counts. Any adjustments
identified by the consignment supplier, must be adjusted following the Postal Service
process for mandatory or optional inventory adjustments. In addition, they stated with
the implementation of SEAM - Vehicle Maintenance system, all parts and inventory
levels will be tracked in this system, and procedures for performing inventory counts
have been established.

Management agreed with recommendation 2, in part, and stated that, in addition to
significantly enhancing the ability to identify parts potentially under warranty with the
implementation of SEAM - Vehicle Maintenance, they have created two reports that
enable management's visibility of potentially warranted parts and reimbursement
tracking. The SEAM VMF Student Training Manual documents this procedure.
However, management did not agree that they need to take any additional action to
comply with the recommendation.

Management agreed, in part, with recommendation 3, but disagreed with the monetary
impact related to this recommendation, as noted above. They agree with creating an
exception report to identify parts with potential warranties not listed on a Return Material
Authorization form. In addition, management will research the best method for


                                              7
Consigned Vehicle Parts                                                       FT-AR-13-010



measuring parts with potential warranties and warranty amounts received. However,
any enhancements must be justified with proof of hard savings and approved by a
Change Control Board. Subsequent discussions with management identified that these
actions are scheduled for completion by August 1, 2013.

Management disagreed with recommendation 4 and its related other impact. They
stated that the calculation of other impact was flawed, as noted above, and using the
consignment vendor's system would cost in excess of $5 million annually.
SEAM- Vehicle Maintenance will allow identification of potential available warranties
without adding extra hours researching individual parts.

Management agreed, in part, with recommendation 5 but disagreed with its related
monetary impact. Management noted that the monetary impact did not appear to take
into consideration loss reimbursements due to damaged cores. They added that they
created two reports which allow them visibility over parts issued with core values and
reimbursement tracking. Navigation documents and training have been provided to
each facility. The procedure is documented in the SEAM VMF Student Training Manual
for core return and documentation procedures.

See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 3 and 5.
Subsequent to receiving management's comments, with regard to monetary benefit
calculations, we worked with management's statistician. We identified an error in our
alignment of the warranty to sales dollars by VMF. We corrected our analysis and
calculations of monetary impact and the potential loss without action is $1.5 million.
Until a vehicle parts transaction history has been in place for 1 year, SEAM - Vehicle
Maintenance will not identify parts under warranty.

Also, with regard to other impact, we corrected our calculation errors. The OIG believes
that, unless management implements a systematic method to capture warranties for
parts used prior to implementing SEAM - Vehicle Maintenance, the Postal Service could
lose almost $2.1 million in warranty reimbursements. This report reflects changes in the
figures. With regard to damaged cores reducing the amount of potential additional
reimbursement, we queried the consignment supplier who told us that they did not track
damaged cores and do not recall rejecting any cores for damages. However, if there
were any, the amount was minimal.

With regard to recommendation 1, if observing counts performed by consignment
supplier personnel does not take place, errors or differences in their counts may not be
identified, which places parts in the stockrooms at risk. However, we agree that, with the
implementation of SEAM - Vehicle Maintenance, some mitigating controls will be
achieved, such as agreeing to the adjustments. We will not pursue audit resolution but



                                            8
Consigned Vehicle Parts                                                       FT-AR-13-010



will continue to monitor warranty consignment supplier physical inventories as part of
our annual financial statements audits.

With regard to recommendation 2, we agree that SEAM – Vehicle Maintenance training,
enhancements, and reports will supplement VMF personnel's ability to identify and
obtain reimbursement for parts under warranty. We will not pursue audit resolution but
will continue to monitor warranty reimbursements as part of our annual financial
statements audits.

With regard to recommendation 4, if nationwide procedures are not developed, as
recommended, VMF personnel may not obtain warranty reimbursements for all eligible
defective and failed vehicle parts. However, in subsequent communication,
management explained how their costs exceeded the benefit to review for each part,
and it is management's decision to determine if procedures would be cost effective to
implement. Therefore, we will not pursue audit resolution and consider this
recommendation closed.




                                            9
Consigned Vehicle Parts                                                                          FT-AR-13-010




                               Appendix A: Additional Information

Background

In FY 2002, management issued a Memorandum of Policy (MOP) 13 mandating
consignment of vehicle repair parts inventory. The Postal Service entered into national
ordering agreements (NOAs) with authorized suppliers for the sale of vehicle parts
through consignment. Those agreements did not obligate the Postal Service to
purchase parts from the suppliers. Instead, the parts remain the property of the
suppliers until they are used to repair the vehicles. When used, suppliers charge the
Postal Service for the parts. The suppliers are authorized to inventory their own stock at
the VMFs at least once a year, or more frequently if required.

Wheeler Brothers, Inc. is the primary supplier for consigned parts at 274 of 308 VMFs. 14
Wheeler Brothers, Inc. created a web-based inventory system for use at the VMFs to
receive, issue, expense, and resupply consigned vehicle parts at the VMFs for which
Wheeler Brothers, Inc. is the primary supplier. Wheeler Brothers, Inc., in accordance
with the NOA, provides training to VMF employees on how to use its inventory system.

Effective February 1, 2012, management began implementing SEAM – Vehicle
Maintenance to help reduce costs and provide real-time visibility. SEAM - Vehicle
Maintenance replaces VMAS for reporting on inventory assets and work order
transactions as well as tracking and monitoring consigned parts. As of October 1, 2012,
management deployed SEAM - Vehicle Maintenance at six pilot sites and all VMFs in
the Western, Pacific, Northeast, Southern, and Eastern areas. Management targets full
implementation during FY 2013.

Objectives, Scope, and Methodology

Our objectives were to determine whether opportunities exist to reduce program costs
and the level of accounting adjustments for consigned vehicle parts. To achieve our
objectives, we:

    Reviewed payments and adjustments to consignment suppliers.

    Reviewed policies, procedures, and guidance affecting consignment of vehicle parts.

    Reviewed agreements between the Postal Service and authorized consignment
     suppliers.

    Conducted interviews with VMF personnel, management, and consignment supplier
     personnel.

13
   MOP OS-1-17-2002, Mandatory Consignment of Vehicle Repair Parts Inventory; National Program Controls, dated
January 17, 2002.
14
   As of April 10, 2012.

                                                      10
Consigned Vehicle Parts                                                         FT-AR-13-010




   Performed walkthroughs and observations at selected VMFs.

   Observed the processes to obtain warranty reimbursements and core credits.

   Reviewed and evaluated VMAS generated data.

We conducted this performance audit from January 2012 through March 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on September 14, 2012, and included
their comments where appropriate.

We assessed the reliability of Wheeler Brothers, Inc.'s data by tracing invoice amounts
to the National Accounting Oracle Financials Application (NAOFA). We also verified that
warranty reimbursement amounts were accurately recorded in NAOFA. We determined
that the data were sufficiently reliable for the purposes of this report. We did not confirm
the accuracy of all parts overages reported by Wheeler Brothers, Inc. However, we
used the data only to show perspective. Accordingly, we believe the data were
sufficiently reliable for purposes of this report.




                                             11
    Consigned Vehicle Parts                                                           FT-AR-13-010




    Prior Audit Coverage

                                                         Final
                                                        Report         Monetary
          Report Title             Report Number         Date           Impact
Vehicle Parts Program             DR-AR-10-008        9/24/2010       $17,488,469
Report Results:
The Postal Service’s vehicle parts purchasing process did not ensure the Postal
Service paid consignment suppliers the lowest price for vehicle parts. Physical
safeguards and inventory management controls over vehicle parts at 13 of 16 VMF
units were not always adequate. Management agreed with our recommendations
and agreed to establish a process to analyze similar parts by form, fit, and function
where significant price variances exist; to publish a Vehicle Maintenance Bulletin to
clearly communicate policy requirements and management responsibilities to
purchase vehicle repair parts in the most effective manner; and inform
headquarters vehicle program managers of opportunities for alternative parts
suppliers. Management also agreed to publish Vehicle Maintenance Bulletins,
emphasizing security and purchasing procedure guidelines.

Vehicle Warranty Claims            DR-AR-09-004       1/30/2009     $3,539,730
Process
Report Results:
VMF units did not always identify vehicles under a manufacturer’s warranty and
appropriately code the repair for reimbursement. VMF units did not always submit
work and reconcile payments received for repairs made on warranty vehicles with
Postal Service resources. Management agreed with our recommendations and
planned to (1) issue a comprehensive vehicle warranty policy, (2) replace the
VMAS with a new system that will maintain all vehicle warranty requirements, and
(3) collaborate with the vehicle manufacturers to provide detailed warranty data to
aid in reconciling warranty reimbursement payments.




                                                 12
Consigned Vehicle Parts                                                                                FT-AR-13-010



                             Appendix B: Monetary and Other Impacts

                                               Monetary Impacts

           Recommendation                            Impact Category                         Amount
                 3                                    Revenue Loss 15                       $1,503,000
                 5                                     Revenue Loss                            690,000
               Total                                                                        $2,193,000

                                                 Other Impacts

           Recommendation                          Impact Category                          Amount
                 4                                  Assets at Risk 16                       $2,100,000




15
   Amount the Postal Service is (or was) entitled to receive but was underpaid or not realized because policies,
procedures, agreements, requirements, or good business practices were lacking or not followed.
16
   Assets that are at risk of loss because of inadequate internal controls.

                                                          13
Consigned Vehicle Parts                                       FT-AR-13-010



                          Appendix C: Management’s Comments




                                         14
Consigned Vehicle Parts        FT-AR-13-010




                          15
Consigned Vehicle Parts        FT-AR-13-010




                          16
Consigned Vehicle Parts        FT-AR-13-010




                          17
